(~
.,4
            DEPARTMENT OF HEALTH &
                                 & HUMAN SERVICES                                            Office of Inspector General



                                                                                             Washington, D.C.
                                                                                                         D.C. 20201
                                                                                                              20201





                                            MAY
                                            MAY 14
                                                1 4 2009
                                                     20


  TO:              Maiso Bryant
                   Acting Commissioner
                   Administration on Children, Youth, and Families



  FROM:        ~~~~h
               ~~~~h
                    ~¿;~
                   Administration for Children and Families

                    ~~~
                     E.E.Vengrin
                          Vengrin
                   Deputy Inspector General for Audit Services


  SUBJECT: Review of of
             Review  Title iv IV-E
                        Title - E Adoption
                                   AdoptionAssistance
                                            AssistancePayments
                                                       PaymentsininFlorida
                                                                    Floridafor
                                                                            for the
                                                                                 the Period
                                                                                     Period
             October 1, 2004, Through September 30, 2007 (A-04-08-03523)


  Attached is an advance copy of   of our final report on Florida's
                                                           Florida's Title
                                                                     Title iv -E adoption
                                                                            IV-E   adoption assistance
                                                                                              assistance
  payments forfor Federal
                  Federal fiscal
                          fiscal years
                                  years 2005
                                        2005 through
                                               through2007.
                                                        2007. We
                                                               We will
                                                                   wil issue
                                                                         issue this
                                                                                this report
                                                                                     report to the Florida
  Department of Children and Families (the   (the State agency)
                                                        agency) within
                                                                 within 55 business
                                                                            business days.
                                                                                       days. During
                                                                                              During the audit
  period, the
           the State
               State agency
                     agency claimed
                              claimed approximately
                                       approximately$205.1
                                                         $205.1million
                                                                milion ($120.7 million
                                                                                    milion Federal
                                                                                            Federal share)
                                                                                                      share) in
        iv -E adoption assistance payments.
  Title IV-E

  Our objective was to determine whether the State agency complied with certain Federal
  requirements in claiming adoption assistance payments for Federal reimbursement.

       the period October 1,2004,
  For the                    1,2004, through
                                      through September
                                                September 30,
                                                            30, 2007,
                                                                2007, the State
                                                                            State agency
                                                                                  agency complied with
  Federal requirements in claiming most adoption assistance payments for        for Federal
                                                                                    Federal reimbursement.
                                                                                             reimbursement.
  Of
  Of  the 200  payments   in our sample,    182 complied   with  Federal
                                                                Federal   requirements.
                                                                          requirements.   However,
                                                                                          However,   the 18
                                                                                                          18
  remaining payments were unallowable because State records did not demonstrate that the
  payments met Federal reimbursement requirements.
                                              requirements. Based
                                                              Based onon our
                                                                         our sample
                                                                             sample results,
                                                                                      results, we
                                                                                               we estimated
  that for the audit period, the State agency claimed 35,323 unallowable payments totaling
  $4,413,264
  $4,413,264 (Federal
                (Federal share).  Although the
                         share). Although     the State
                                                  State agency
                                                        agency had
                                                                 had internal controls
                                                                               controls that prevented
  unallowable    payments in most cases,
  unallowable payments              cases, controls
                                             controls over
                                                      over eligibility
                                                            eligibility documentation
                                                                        documentation were
                                                                                         were not
                                                                                               not sufficient
                                                                                                   suffcient
  to detect documentation errors in all all cases.
                                            cases. The
                                                    The State
                                                         State agency
                                                               agency recently took steps
                                                                                       steps to improve
  these  controls.
  these controls.



  We recommend that the State agency:

      •.    refund$4,413,264
           refud   $4,413,264toto the
                                  the Federal
                                      FederalGovernment,
                                              Governent,
Page 2 – Maiso Bryant


   •   review payments claimed after the audit period on behalf of the 18 children identified in
       our review to ensure compliance with Federal requirements and repay any unallowable
       amounts, and

   •   use the results of this audit in staff education and quality assurance reviews to ensure
       compliance with Federal requirements in the future.

In its comments on our draft report, the State agency did not specifically address our first
recommendation. With respect to our second and third recommendations, the State agency
provided information on steps that it had taken or planned to take to implement the
recommendations.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through e-mail at Lori.Pilcher@oig.hhs.gov,
or Peter Barbera, Regional Inspector General for Audit Services, Region IV, at (404) 562-7750 or
through e-mail at Peter.Barbera@oig.hhs.gov. Please refer to report number A-04-08-03523.


Attachment
(g
                               DEPARTMENT OF
                               DEPARTMENT OFHEALTH
                                             HEALTHAND
                                                    ANDHUMAN
                                                        HUMANSERVICES
                                                              SERVICESOffce Office
                                                                            of Inspector     General
                                                                                   of Inspector General
+' v.i
 ~ Su,vicEs.
                                                                                                                          Office of Audit Services
                                                                                                                          Offce of




\::1
                                                                                                                               REGION IV
                                                                                                                               REGION iv

                                                                                                                  61
                                                                                                                  61 Forsyth Street,S.W.,
                                                                                                                     Forsyth Street, S.W.,Suit.e
                                                                                                                                          Suite 3T41
                                                                                                                       Atlanta, Georgia
                                                                                                                                 Georgia 30303

                                                                MAY
                                                                MAY 202009
                                                                    202009


                      Number: A-04-08-03523
               Report Number:

               Mr. George H. Sheldon
               Secretary
                       Deparment of
               Florida Department   of Children
                                       Children and
                                                and Families
               1317 Winewood
               1317  Winewood Boulevard
               Building 1,
                        I, Room 202
               Tallahassee, Florida
               Tallahassee, Florida 32399-0700

               Dear
               Dear Mr. Sheldon:
                    Mr. Sheldon:



               Enclosed
               Enclosed is the is  the
                                U.S.    U.S. of
                                     Department Department of Realth            and Services
                                                                     Health and Human Human      Services
                                                                                             (HHS), Offce of
 (RRS), Office of Inspector

               General      (OIG),
               General (OIG),           final
                              final report      report
                                            entitled       entitled
                                                     "Review of 
    "Review of Title IV-E Adoption Assistance Payments in
               Florida for the Period  Period October 1,                   Through September
                                                                I, 2004, Through       September 30,     30, 2007."
                                                                                                              2007." We
                                                                                                                     We will
                                                                                                                        will forward
                                                                                                                              forward a copy
               of
               of  this report to the HHS action official noted on the following page for review and                         and any action
               deemed       necessary.
               deemed necessar.


                    HHS action
               The HHS   action official
                                 offcial wil
                                         willmake
                                              makefinal
                                                     finaldetermination
                                                           determinationasastotoactions
                                                                                 actionstaken
                                                                                         takenon
                                                                                               onall
                                                                                                  allmatters
                                                                                                      matters reported.
                                                                                                               reported.
                           that you
               We request that  you respond
                                     respond to
                                              to this
                                                 this official
                                                      offcial within 30 days from the date of this
                                                                                                 this letter.
                                                                                                      letter. Your
               response should present any comments or additional information that    that you
                                                                                           you believe may have a
               bearing on the final determination.

               Pursuant to the Freedom
                                Freedom ofInformation
                                          ofInformation Act,
                                                           Act, 55 U.S.C.
                                                                   U.S.C. §§ 552,
                                                                             552, OIG
                                                                                  OIG reports
                                                                                        reports generally
                                                                                                generally are
                                                                                                           are made
               available to the public to the extent that information in the report is not
                                                                                         not subject
                                                                                              subject to exemptions
                                                                                                         exemptions in
               the Act. Accordingly,
                        Accordingly, this
                                       this report
                                            report wil
                                                   willbe
                                                        beposted
                                                           postedon onthe
                                                                       theInternet
                                                                           Internet at
                                                                                    at http://oig.hhs.gov.
                                                                                       http://oig.hhs.gov.

               If
               If you have any questions or comments about
                                                      about this
                                                            this report,
                                                                 report, please
                                                                         please do
                                                                                do not
                                                                                   not hesitate
                                                                                       hesitate to
                                                                                                 to call
                                                                                                    call me,
                                                                                                         me, or
                                                                                                             or contact
                                                                                                                contact
               John Drake, Audit Manager, at (404) 562-7755                         John.Drake(foig.hhs.gov.
                                                    562-7755 or through e-mail at John.Drake@oig.hhs.gov.
               Please refer to report number A-04-08-03523 in all correspondence.

                                                                         Sincerely,

                                                                        (f~~ (J ~.~
                                                                         Peter J. Barbera
                                                                         Regional Inspector General
                                                                           for Audit Services


               Enclosure
Page 2 – Mr. George H. Sheldon


Direct Reply to HHS Action Official:

Ms. Carlis V. Williams
Regional Administrator, Region IV
Administration for Children and Families
U.S. Department of Health and Human Services
61 Forsyth Street, Suite 4M60
Atlanta, Georgia 30303-8909
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   REVIEW OF TITLE IV-E
   ADOPTION ASSISTANCE
PAYMENTS IN FLORIDA FOR THE
  PERIOD OCTOBER 1, 2004,
THROUGH SEPTEMBER 30, 2007




                    Daniel R. Levinson
                     Inspector General

                        May 2009
                      A-04-08-03523
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title IV-E of the Social Security Act, the Department of Health and Human Services,
Administration for Children and Families (ACF), administers the adoption assistance program.
The adoption assistance program provides Federal funds to States to facilitate the timely
placement of children whose special needs or circumstances would otherwise make them
difficult to place with adoptive families. Monthly adoption subsidies assist adoptive families
with the care of eligible children.

In Florida, the Department of Children and Families (the State agency) is responsible for
administering the Title IV-E adoption assistance program. During Federal fiscal years 2005
through 2007, the State agency claimed approximately $205.1 million ($120.7 million Federal
share) in Title IV-E adoption assistance payments.

OBJECTIVE

Our objective was to determine whether the State agency complied with certain Federal
requirements in claiming adoption assistance payments for Federal reimbursement.

SUMMARY OF FINDINGS

For the period October 1, 2004, through September 30, 2007, the State agency complied with
Federal requirements in claiming most adoption assistance payments for Federal reimbursement.
Of the 200 payments in our sample, 182 complied with Federal requirements. However, the 18
remaining payments were unallowable because State records did not demonstrate that the
payments met Federal reimbursement requirements. Based on our sample results, we estimated
that for the audit period, the State agency claimed 35,323 unallowable payments totaling
$4,413,264 (Federal share). Although the State agency had internal controls that prevented
unallowable payments in most cases, controls over eligibility documentation were not sufficient
to detect documentation errors in all cases. The State agency recently took steps to improve
these controls.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $4,413,264 to the Federal Government,

   •   review payments claimed after the audit period on behalf of the 18 children identified in
       our review to ensure compliance with Federal requirements and repay any unallowable
       amounts, and

   •   use the results of this audit in staff education and quality assurance reviews to ensure
       compliance with Federal requirements in the future.


                                                 i
STATE AGENCY COMMENTS

In its comments on our draft report, the State agency did not specifically address our first
recommendation. With respect to our second and third recommendations, the State agency
provided information on steps that it had taken or planned to take to implement the
recommendations. The State agency’s comments, excluding technical comments, are included as
Appendix C.




                                             ii
                                                    TABLE OF CONTENTS

                                                                                                                                         Page

INTRODUCTION.........................................................................................................................1

     BACKGROUND ......................................................................................................................1
       Title IV-E Adoption Assistance Program ...........................................................................1
       Adoption Assistance in Florida...........................................................................................1

     OBJECTIVE, SCOPE, AND METHODOLOGY ....................................................................2
       Objective .............................................................................................................................2
       Scope...................................................................................................................................2
       Methodology .......................................................................................................................2

FINDINGS AND RECOMMENDATIONS ...............................................................................4

     FEDERAL REQUIREMENTS.................................................................................................4

     PAYMENTS NOT ALLOWABLE FOR FEDERAL REIMBURSEMENT...........................5

     ADOPTION ASSISTANCE OVERPAYMENTS ...................................................................5

     CONTROLS OVER ELIGIBILITY DOCUMENTATION.....................................................6

     RECOMMENDATIONS..........................................................................................................6

     STATE AGENCY COMMENTS.............................................................................................6

APPENDIXES

     A – SAMPLE DESIGN AND METHODOLOGY

     B – SAMPLE RESULTS AND ESTIMATES

     C – STATE AGENCY COMMENTS




                                                                      iii
                                       INTRODUCTION

BACKGROUND

Title IV-E Adoption Assistance Program

Pursuant to Title IV-E of the Social Security Act (the Act), the Department of Health and Human
Services, Administration for Children and Families (ACF), administers the adoption assistance
program. The adoption assistance program provides Federal funds to States to facilitate the
timely placement of children whose special needs or circumstances would otherwise make them
difficult to place with adoptive families. Monthly adoption subsidies assist adoptive families
with the care of eligible children. Sections 471, 473, and 475 of the Act and 45 CFR § 1356
establish adoption assistance requirements, and ACF’s “Child Welfare Policy Manual” provides
guidance on these requirements.

A child may be eligible for Title IV-E adoption assistance if he or she:

   1. meets Aid to Families with Dependent Children (AFDC) requirements (as in effect on
      July 16, 1996) at the time of removal from the home,

   2. meets the requirements for Supplemental Security Income,

   3. is the child of a minor parent in foster care, or

   4. was previously eligible for Title IV-E adoption assistance.

A State must document a child’s eligibility under one of these four categories for any adoption
assistance payments to be eligible for Federal reimbursement. A State must also maintain other
pertinent records, such as court records, adoption assistance agreements, evidence of criminal
record checks, and birth certificates.

Adoption Assistance in Florida

In Florida, the Department of Children and Families (the State agency) is responsible for
administering the Title IV-E adoption assistance program. To claim costs for Title IV-E
reimbursement, the State agency submits a quarterly claim to the Federal Government.

In 1996, Florida mandated that the State agency establish pilot programs during State fiscal year
(FY) 1996–1997 to privatize some child welfare services through contracts with community-
based care organizations (CBC). The State agency continued transitioning work to CBCs
statewide and transferring case records maintained by the State agency through 2007. CBCs are
now responsible for adoption assistance case management services, and the State agency remains
responsible for program oversight, training, and technical assistance.

During Federal FYs 2005 through 2007, the Federal share of Florida’s adoption assistance
payments ranged from 58.76 percent to 58.90 percent. The State agency claimed approximately



                                                 1
$205.1 million ($120.7 million Federal share) in Title IV-E adoption assistance payments on its
Federal quarterly expenditure reports (ACF-IV-E-1) during that period.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency complied with certain Federal
requirements in claiming adoption assistance payments for Federal reimbursement.

Scope

We reviewed adoption assistance payments for which the State agency claimed Federal
reimbursement during Federal FYs 2005 through 2007. We limited our review to 598,859
payments of $265 or more totaling $193,147,478. We reviewed the State agency’s internal
control structure related to claiming Federal financial participation for adoption assistance
payments.

We performed fieldwork at the State agency in Tallahassee, Florida, from March through
October 2008. We relied on the State agency to obtain all necessary documentation from CBCs
throughout the State.

Methodology

To accomplish our objective, we:

   •    reviewed Federal and State laws, regulations, and guidance related to Federal adoption
        assistance payments;

   •    interviewed officials at the State agency to identify policies and procedures for
        establishing adoption assistance payment amounts, making periodic assistance payments
        to adoptive families, and maintaining adoption assistance records;

   •    reviewed the State agency’s Federal quarterly expenditure reports for the audit period and
        traced the reported amounts to the State’s accounting records for the first quarter of
        FY 2005;

   •    identified a sampling frame of 598,859 payments of $265 or more totaling $193,147,478;
        and

   •    selected a simple random sample of 200 payments totaling $62,774 from the sampling
        frame. (See Appendix A for details on our sampling methodology.)

For each of the 200 sampled payments, we determined whether State records demonstrated that
the payment met Federal reimbursement requirements. Specifically, we determined whether:



                                                 2
    •    the adopted child was under age 18 at the time of the payment or under age 21 with a
         mental or physical handicap that warranted continuation of assistance;

    •    the child was a U.S. citizen or qualified alien;

    •    the adoptive parents had not been convicted of a felony involving child abuse or neglect,
         spousal abuse, a crime against children (including pornography), or a crime involving
         violence;

    •    the State agency had checked a child abuse and neglect registry for information on any
         prospective adoptive parent before approving the placement of the child;

    •    the State agency had made a determination that the child should not be returned to the
         home of his or her parents;

    •    the child met one or more “special needs” criteria established by the State; 1

    •    the State agency had made reasonable efforts to place the child without providing Title
         IV-E adoption assistance;

    •    an adoption assistance agreement was signed and dated by all parties, and the agreement
         was executed prior to the child’s adoption;

    •    the payment amount specified in the adoption assistance agreement matched the payment
         that the State agency made;

    •    the amount of the adoption assistance payment did not exceed the foster care
         maintenance payment that would have been paid during the period if the child had been
         in a foster family home;

    •    there was no evidence that the adoptive parents were no longer legally responsible for the
         child or that the child was no longer receiving support from the adoptive parents; and

    •    the child fulfilled the requirements for at least one of the four adoption assistance
         eligibility categories.

We calculated the Federal share of unallowable payments in our sample using the rate applicable
to the FY in which the payment was made. We then estimated, for the total sampling frame of
598,859 adoption assistance payments, the total number and dollar value of unallowable
payments. (See Appendix B.)


1
 In Florida, a “special needs” child must meet one or more of the following criteria: black or racially mixed
heritage, 8 years of age or older, among siblings placed together for adoption, mentally retarded, emotionally
handicapped, physically disabled, or clinically diagnosed with some other disability.



                                                          3
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

For the period October 1, 2004, through September 30, 2007, the State agency complied with
Federal requirements in claiming most adoption assistance payments for Federal reimbursement.
Of the 200 payments in our sample, 182 complied with Federal requirements. However, the 18
remaining payments were unallowable because State records did not demonstrate that the
payments met Federal reimbursement requirements. Based on our sample results, we estimated
that for the audit period, the State agency claimed 35,323 unallowable payments totaling
$4,413,264 (Federal share). Although the State agency had internal controls that prevented
unallowable payments in most cases, controls over eligibility documentation were not sufficient
to detect documentation errors in all cases. The State agency recently took steps to improve
these controls.

FEDERAL REQUIREMENTS

Pursuant to 45 CFR § 92.42(a), grantees must maintain all financial and programmatic records,
supporting documentation, statistical records, and other records that are reasonably considered as
pertinent to program regulations or the grant agreement.

Section 475(3) of the Act states: “The term ‘adoption assistance agreement’ means a written
agreement, binding on the parties to the agreement, between the State agency, other relevant
agencies, and the prospective adoptive parents of a minor child which at a minimum . . . specifies
the nature and amount of any payments, services, and assistance to be provided under such
agreement . . . .” Pursuant to 45 CFR § 1356.40(b), the adoption assistance agreement for
payments made under section 473(a)(2) must be signed and in effect at the time of or prior to the
final decree of adoption, and a copy of the signed agreement must be given to each party.

Section 473(c) of the Act states: “For purposes of this section, a child shall not be considered a
child with special needs unless . . . the State has determined that the child cannot or should not be
returned to the home of his parents . . . .”

Pursuant to section 473(a)(2)(A)(i)(I)(aa) of the Act, a State may claim Federal funding for
adoption assistance paid to an adoptive parent for an AFDC-eligible child if there is evidence
that a judicial determination was made that the child’s continuation in the home from which he
or she was removed would be contrary to the child’s welfare.

Section 471(a)(20)(A) of the Act states that unless a State elected to opt out of this requirement,
the State must perform criminal record checks, including fingerprint-based checks of national
crime information databases, for any prospective adoptive parent before the adoptive parent may
be approved for placement of a child. Under 45 CFR § 1356.30(e), ACF requires “opt-out”



                                                 4
States to maintain documentation in the case file that verifies that “safety considerations with
respect to the caretaker” were addressed.

PAYMENTS NOT ALLOWABLE FOR FEDERAL REIMBURSEMENT

Of the 200 payments in our sample, 18 were unallowable for Federal reimbursement:

   •   For seven payments ($1,369 Federal share), the State agency did not provide an adoption
       assistance agreement that was signed and in effect at the time of the final adoption
       decree.

   •   For three payments ($576 Federal share), a payment amount was not specified in the
       adoption assistance agreement.

   •   For two payments ($10 Federal share), the payment amount in the adoption assistance
       agreement was less than the payment that the State agency made.

   •   For two payments (–$37 Federal share), the payment amount in the adoption assistance
       agreement was greater than the payment that the State agency made.

   •   For one payment ($179 Federal share), no adoption assistance agreement was in effect at
       the time of the final adoption decree, and no payment amount was specified in the
       adoption assistance agreement.

   •   For one payment ($174 Federal share), the State agency did not document that the child
       could not or should not be returned to the home.

   •   For one payment ($174 Federal share), the State agency did not provide a judicial
       determination that continuation in the home would be contrary to the child’s welfare, and
       no adoption assistance agreement was signed and in effect at the time of the final decree
       of adoption.

   •   For one payment ($163 Federal share), the eligibility documentation did not show that the
       State agency had performed a criminal record check on the prospective adoptive parents,
       and the State agency was not able to provide other evidence that it had done so.

ADOPTION ASSISTANCE OVERPAYMENTS

From our sample of 200 payments, we identified 18 payments with errors amounting to $2,608
(Federal share). Based on these findings, we estimated that the State agency claimed 35,323
payments totaling $4,413,264 (Federal share) that were unallowable for Federal reimbursement.
(See Appendix B for details of our estimates.)




                                                 5
CONTROLS OVER ELIGIBILITY DOCUMENTATION

Although the State agency had internal controls that prevented unallowable payments in most
cases, controls over eligibility documentation were not sufficient to detect documentation errors
in all cases, especially during the transition period when the State agency began contracting with
CBCs to provide adoption services. Of the 18 unallowable payments in our sample, 17 were
made on behalf of children whose adoptions occurred during this transition period.

Although CBCs are now responsible for case management services, the State agency remains
responsible for program oversight, training, and technical assistance. Because of the State
agency’s inadequate oversight over eligibility documentation, some payments were not
adequately documented.

The State agency recently established a new quality assurance review group that will test CBCs’
case management practices for compliance with Federal rules governing adoption assistance
payments claimed for Federal reimbursement.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $4,413,264 to the Federal Government,

   •   review payments claimed after the audit period on behalf of the 18 children identified in
       our review to ensure compliance with Federal requirements and repay any unallowable
       amounts, and

   •   use the results of this audit in staff education and quality assurance reviews to ensure
       compliance with Federal requirements in the future.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency did not specifically address our first
recommendation. With respect to our second and third recommendations, the State agency
provided information on steps that it had taken or planned to take to implement the
recommendations. The State agency’s comments, excluding technical comments, are included as
Appendix C.




                                                 6
APPENDIXES
                                                                                 APPENDIX A


                        SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of Title IV-E adoption assistance payments made on behalf of adopted
children in Florida for the period October 1, 2004, through September 30, 2007.

SAMPLING FRAME

To develop the sampling frame, we excluded from the population recoupments, negative
payment adjustments, and payments less than $265. The resulting sampling frame consisted of
598,859 payments totaling $193,147,478.

Each record in the sampling frame contained a child identifier number and a payment made for
the audit period. The payments consisted of commingled Federal and State funds.

SAMPLE UNIT

The sample unit was a payment.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 200 payments.

SOURCE OF RANDOM NUMBERS

We used the Office of Inspector General (OIG), Office of Audit Services (OAS), statistical
software to generate the random numbers for our sample.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in the frame from 1 to 598,859. After generating
200 random numbers, we selected the corresponding frame items.

TREATMENT OF MISSING SAMPLE ITEMS

If the State agency was unable to produce necessary documentation to support an eligibility
determination, we considered the sample item an unallowable payment.

ESTIMATION METHODOLOGY

We used the OIG, OAS, statistical software to estimate the number and dollar value of
unallowable payments in the sampling frame.
                                                                                 APPENDIX B


                         SAMPLE RESULTS AND ESTIMATES

                                      Sample Results

                                                                                 Value of
                                                     Number of
Frame        Value of     Sample     Value of                                   Unallowable
                                                     Unallowable
 Size         Frame        Size      Sample                                      Payments
                                                      Payments
                                                                              (Federal Share)
598,859   $193,147,478      200      $62,774               18                     $2,608

                             Estimated Unallowable Payments
                   (Limits calculated for a 90-percent confidence interval)

                   Estimated Number                    Estimated Dollar Value of
                    of Unallowable                      Unallowable Payments
                       Payments                             (Federal Share)
Point estimate          53,897                                 $7,809,996
Lower limit             35,323                                 $4,413,264
Upper limit             78,170                                $11,206,729
APPENDIX C
  Page 1 of 2
APPENDIX C
  Page 2 of 2
